Appendix
Decision of the Court of Appeals for the Eleventh Circuit,
United States v. Sanchez-Rosado, 18-10865, (March 9, 2020) ..................................... A
District Court’s Final Judgment,
United States v. Sanchez-Rosado, 6:17-cr-219-Orl-40DCI ........................................... B

Appendix A

Case: 18-10865

Date Filed:
(1 of 7)
03/09/2020

Page: 1 of 6

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-10865
Non-Argument Calendar
________________________
D.C. Docket No. 6:17-cr-00219-PGB-DCI-1

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
JOSE LUIS SANCHEZ-ROSADO,
Defendant-Appellant.
________________________
Appeal from the United States District Court
for the Middle District of Florida
________________________
(March 9, 2020)
Before WILLIAM PRYOR, LAGOA and HULL, Circuit Judges.
PER CURIAM:

Case: 18-10865

Date Filed:
(2 of 7)
03/09/2020

Page: 2 of 6

Jose Sanchez-Rosado appeals his conviction that was entered on a plea of
guilty to possessing a firearm as a felon and his sentence of 180 months of
imprisonment. 18 U.S.C. § 922(g)(1). Sanchez-Rosado argues, for the first time,
that section 922(g) is unconstitutional facially and as applied to him and that
Rehaif v. United States, 139 S. Ct. 2191 (2019), which the Supreme Court decided
while his appeal was pending, established errors in his indictment and change of
plea hearing that require the vacatur of his conviction. Sanchez-Rosado also argues
that the enhancement of his sentence under the Armed Career Criminal Act, 18
U.S.C. § 924(e), based on facts about prior convictions not alleged in his
indictment and that were not proved to a jury violated his rights under the Fifth and
Sixth Amendments; that the district court erred by relying on the dates of his prior
offenses to determine whether they occurred on separate occasions; and that his
three prior convictions in Florida courts for robbery did not count as predicate
offenses under the Act. We affirm Sanchez-Rosado’s conviction and sentence.
The district court did not plainly err by failing sua sponte to vacate SanchezRosado’s conviction based on his challenges to the constitutionality of section
922(g). Sanchez-Rosado’s challenge to the facial validity of the statute is
foreclosed by United States v. Scott, 263 F.3d 1270 (11th Cir. 2001), in which we
held that “the jurisdictional element of the statute, i.e., the requirement that the
felon ‘possess in or affecting commerce, any firearm or ammunition,’ immunizes
2

Case: 18-10865

Date Filed:
(3 of 7)
03/09/2020

Page: 3 of 6

§ 922(g)(1) from [a] facial constitutional attack.” Id. at 1273. Our precedent also
holds that section 922(g)(1) is constitutional as applied to a defendant who
possesses a firearm that “traveled in interstate commerce,” United States v.
McAllister, 77 F.3d 387, 390 (11th Cir. 1996), and Sanchez-Rosado admitted
during his change of plea hearing that the rifle he possessed in Florida had been
manufactured in Illinois.
Sanchez-Rosado is not entitled to relief from his conviction based on Rehaif.
Although Sanchez-Rosado’s indictment was defective because it failed to allege
the element of his offense that he knew he was a felon, 139 S. Ct. at 2200; see
United States v. Reed, 941 F.3d 1018, 1021 (11th Cir. 2019), the omission of a
mens rea element from an indictment does not divest the district court of subject
matter jurisdiction, see United States v. Brown, 752 F.3d 1344, 1350–51, 1353–54
(11th Cir. 2014), and Sanchez-Rosado waived the defect by pleading guilty. And
although plain error occurred when Sanchez-Rosado was not informed during his
change of plea hearing that he had to know that he was a felon barred from
possessing a firearm, see Fed. R. Crim. P. 11(b)(1)(G); Rehaif, 139 S. Ct. at 2200,
he does not even argue, much less “show a reasonable probability that, but for the
error, he would not have entered [his] plea,” United States v. Moriarty, 429 F.3d
1012, 1020 (11th Cir. 2005) (quoting United States v. Dominguez Benitez, 542
U.S. 74, 83 (2004)). Sanchez-Rosado’s indictment alleged that he had five prior
3

Case: 18-10865

Date Filed:
(4 of 7)
03/09/2020

Page: 4 of 6

felony convictions, he admitted during his plea colloquy that he was a felon who
had not had his right to possess firearms restored, and he admitted at sentencing
that he had been convicted of two robbery convictions for which he had served
concurrent terms of more than 35 months in prison before possessing the rifle. And
at sentencing, Sanchez-Rosado “readily admit[ted]” that, “as a convicted felon,
[he] was prohibited from being in possession of a firearm.” So Sanchez-Rosado
cannot prove that he was prejudiced by the errors in his indictment or during his
change of plea hearing.
Sanchez-Rosado’s challenge to the enhancement of his sentence fails too.
Sanchez-Rosado’s indictment identified his prior felony offenses and the dates of
his convictions, and he admitted that he was a felon who had “not received
clemency for his felony conviction(s).” And Sanchez-Rosado’s argument is
foreclosed by precedent too. In Almendarez–Torres v. United States, 523 U.S. 224,
228–47 (1998), the Supreme Court held that a prior conviction “relevant only to
the sentencing of an offender found guilty of the charged crime” does not have to
be charged in an indictment or proven beyond a reasonable doubt to a jury, even if
it increases the defendant’s maximum statutory sentence. Almendarez-Torres
remains the law until overruled by the Supreme Court, which it declined to do in
Alleyne v. United States, 570 U.S. 99 (2013). United States v. Harris, 741 F.3d
1245, 1249 (11th Cir. 2014).
4

Case: 18-10865

Date Filed:
(5 of 7)
03/09/2020

Page: 5 of 6

The district court did not err by counting Sanchez-Rosado’s two robbery
convictions as separate offenses. A defendant is subject to an enhanced sentence
when he has three prior convictions for violent felonies or serious drug offenses
that were “committed on occasions different from one another,” 18 U.S.C.
§ 924(e)(1), such that they are “temporally distinct,” United States v. Longoria,
874 F.3d 1278, 1281 (11th Cir. 2017). Sanchez-Rosado did not object to the
statements in his presentence report that, on January 28, 2011, he robbed an RBC
Bank in Ormond Beach, Florida, and on February 1, 2011, he robbed a Wachovia
Bank in Deland, Florida. See United States v. McCloud, 818 F.3d 591, 595 (11th
Cir. 2016) (“The district court may make findings of fact [regarding the nature of a
prior conviction] based on undisputed statements in the PSI . . . .”). And the
government introduced at sentencing copies of the charging instrument and
judgment for each of Sanchez-Rosado’s prior robbery convictions. See Shepard v.
United States, 544 U.S. 13, 16 (2005). Sanchez-Rosado argues, for the first time,
that the dates of his robberies are “non-elemental facts” that the district court could
not consider to determine whether his crimes occurred on different occasions, but
we held in Longoria that “for ACCA purposes, district courts may determine both
the existence of prior convictions and the factual nature of those convictions,
including whether they were committed on different occasions, so long as they

5

Case: 18-10865

Date Filed:
(6 of 7)
03/09/2020

Page: 6 of 6

limit themselves to Shepard-approved documents,” 874 F.3d at 1283 (quoting
United States v. Weeks, 711 F.3d 1255 (11th Cir. 2013)).
Sanchez-Rosado’s arguments that his two convictions for robbery and his
one conviction for domestic battery by strangulation do not qualify as predicate
offenses are foreclosed by precedent. Sanchez-Rosado argues that bank robberies
perpetuated by putting victims in fear do not qualify as violent felonies, but the
Supreme Court held in Stokeling v. United States, 139 S. Ct. 544, 555–56 (2019),
that “[r]obbery under Florida law . . . qualifies as a ‘violent felony’” because the
defendant must use or threaten to use physical force to overpower his victim,
which “correspond[s] to that level of force” required in the elements clause of the
Act. And Sanchez-Rosado’s challenge to his remaining conviction fails because
“Florida’s domestic-battery-by-strangulation statute requires conduct that
categorically requires the use of violent force.” United States v. Dixon, 874 F.3d
678, 682 (11th Cir. 2017).
We AFFIRM Sanchez-Rosado’s conviction and sentence.

6

Case: 18-10865

Date Filed:
(7 of 7)
03/09/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

March 09, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 18-10865-AA
Case Style: USA v. Jose Sanchez-Rosado
District Court Docket No: 6:17-cr-00219-PGB-DCI-1
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF")
system, unless exempted for good cause. Enclosed is a copy of the court's decision filed today in this
appeal. Judgment has this day been entered pursuant to FRAP 36. The court's mandate will issue at a later
date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition
for rehearing en banc is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for
inmate filings, a petition for rehearing or for rehearing en banc is timely only if received in the clerk's office
within the time specified in the rules. Costs are governed by FRAP 39 and 11th Cir.R. 39-1. The timing,
format, and content of a motion for attorney's fees and an objection thereto is governed by 11th Cir. R. 39-2
and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a
complete list of all persons and entities listed on all certificates previously filed by any party in the appeal.
See 11th Cir. R. 26.1-1. In addition, a copy of the opinion sought to be reheard must be included in any
petition for rehearing or petition for rehearing en banc. See 11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for
time spent on the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme
Court of a petition for writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA
Team at (404) 335-6167 or cja_evoucher@ca11.uscourts.gov for questions regarding CJA vouchers or the
eVoucher system.
For questions concerning the issuance of the decision of this court, please call the number referenced in the
signature block below. For all other questions, please call T. L. Searcy, AA at (404) 335-6180.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Djuanna H. Clark
Phone #: 404-335-6151
OPIN-1 Ntc of Issuance of Opinion

Appendix B

Case 6:17-cr-00219-PGB-DCI Document 50 Filed 02/21/18 Page 1 of 5 PageID 234

Case 6:17-cr-00219-PGB-DCI Document 50 Filed 02/21/18 Page 2 of 5 PageID 235

Case 6:17-cr-00219-PGB-DCI Document 50 Filed 02/21/18 Page 3 of 5 PageID 236

Case 6:17-cr-00219-PGB-DCI Document 50 Filed 02/21/18 Page 4 of 5 PageID 237

Case 6:17-cr-00219-PGB-DCI Document 50 Filed 02/21/18 Page 5 of 5 PageID 238

